i
I

C@QCKLE

2311 Douglas Street j E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B r ie fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.
MANUEL LOPEZ-CASTRO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of January, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
RICHARD C. KLUGH
Counsel of Record
25 S.E. 2nd Avenue, Suite 1100
Miami, Florida 33131
Tel. (305) 536-1191
rklugh@klughlaw.com

Subscribed and sworn to before me this 3rd day of January, 2020. |
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

coe wv EC Clit Odea hk, ale

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39248
SERVICE LIST

Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
